0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. _ _
AMN SERVICES, LLC,

Petitioner,
v.
VERNA CLARKE & LAURA WITTMANN, ON BEHALF OF
THEMSELVES AND OTHERS SIMILARLY SITUATED,

Respondents.
As required by Supreme Court Rule 33. l(h), I certify
that the Petition for Writ of Certiorari contains 8,852
words, excluding the parts of the Petition that are
exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on August 26, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED
(800) 890.5001

www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
' Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E

Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

JOHN 0. GALI_A.GHER
Notary Public, State of Ohio
My Commission Expiras
r ebrL1:i,y U, 2023

